   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Washington, D.C. 20201




September 10, 2010

TO:           Mary Wakefield, Ph.D., R.N.
              Administrator
              Health Resources and Services Administration


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at Whitney M. Young, Jr., Health Center, Inc.
              (A-02-10-02006)


The attached final report provides the results of our limited scope review of Whitney M. Young,
Jr., Health Center, Inc. This review is part of an ongoing series of reviews performed by the
Office of Inspector General (OIG) to provide oversight of funds provided by the American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-02-10-02006 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
        REVIEW AT
  WHITNEY M. YOUNG, JR.,
   HEALTH CENTER, INC.




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-02-10-02006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program. The HRSA health centers are
community-based and patient-directed organizations that serve populations with limited access to
health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

The Whitney M. Young, Jr., Health Center, Inc. (Whitney), a non-profit agency, provides
medical, dental, and addiction services to residents of the Albany, New York area without regard
to income or insurance status.

Whitney is primarily funded by patient service revenues and Federal and State grants. During
CY 2009, HRSA provided Recovery Act funds to Whitney totaling $1,268,985. Of that amount,
$955,565 was allocated for renovation and construction costs, including the purchase of new
equipment and technology, and $313,420 was allocated for increasing the number of patients
served.

OBJECTIVE

Our objective was to assess Whitney’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, Whitney’s financial viability may be adversely impacted by its
financial condition in CYs 2007 and 2008. During this period, Whitney’s expenditures exceeded
revenues and its liabilities significantly increased. Moreover, while Whitney has the capacity to
manage and account for Federal funds and is capable of operating a health center in accordance
with Federal regulations, we noted issues related to Whitney’s accounting system, procurement
practices, Recovery Act reporting, and whistleblower process. In addition, Whitney’s inventory
records do not include all required elements and written procedures have not been established for
periodically performing a physical inventory. Finally, Whitney’s fees for patients with income at
or below established Federal guidelines were not always correctly calculated.


                                                 i
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Whitney’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

WHITNEY M. YOUNG, JR., HEALTH CENTER, INC., COMMENTS

In written comments on our draft report, Whitney agreed with the findings and described actions
that it had taken to address them. Whitney’s comments are included in their entirety as the
appendix.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              The Health Center Program ................................................................................... 1
              Whitney M. Young, Jr., Health Center, Inc. .......................................................... 1
              Requirements for Federal Grantees ....................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 2

FINDINGS AND RECOMMENDATION................................................................................. 3

          FINANCIAL VIABILITY ................................................................................................. 3

          ACCOUNTING SYSTEM ................................................................................................ 4

          PROCUREMENT PRACTICES ....................................................................................... 4

          RECOVERY ACT REPORTING...................................................................................... 4

          WHISTLEBLOWER PROCESS ....................................................................................... 4

          INVENTORY RECORDS ................................................................................................. 5

          FEE SCHEDULE............................................................................................................... 5

          RECOMMENDATION ..................................................................................................... 6

          WHITNEY M. YOUNG, JR., HEALTH CENTER, INC., COMMENTS........................ 6

OTHER MATTER: MANAGEMENT OFFICIAL SEVERANCE PACKAGE .................. 6

APPENDIX

          WHITNEY M. YOUNG, JR., HEALTH CENTER, INC., COMMENTS




                                                                     iii
                                                INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Whitney M. Young, Jr., Health Center, Inc.

The Whitney M. Young, Jr., Health Center, Inc. (Whitney), a non-profit agency, provides
medical, dental, and addiction services to residents of the Albany, New York area without regard
to income or insurance status. 1

Whitney is primarily funded by patient service revenues and Federal and State grants. During
CY 2009, HRSA provided Recovery Act funds to Whitney totaling $1,268,985. Of that amount,
$955,565 was allocated for renovation and construction costs, including the purchase of new
equipment and technology, and $313,420 was allocated for increasing the number of patients
served.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, “Cost Principles for Non-Profit Organizations” (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.


1
    Whitney is also referred to as Whitney M. Young, Jr., Health Services.


                                                           1
The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. In addition, grantees must establish procedures related
to whistleblower protection. Finally, grantees are required to maintain inventory control
systems.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Whitney’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

Scope

We conducted a limited review of Whitney’s financial viability, financial management system,
and related policies and procedures. Therefore, we did not perform an overall assessment of
Whitney’s internal control structure. Rather, we performed limited tests and other auditing
procedures on Whitney’s financial management system to assess its ability to administer
federally funded projects.

We performed our fieldwork at Whitney’s administrative office in Albany, New York, during
December 2009, and January 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    obtained Whitney’s HRSA grant application packages and supporting documentation;

   •    interviewed Whitney personnel to gain an understanding of its accounting system and
        internal controls;




                                                  2
   •   reviewed Whitney’s financial management procedures related to accounting
       documentation, preparation of financial reports, procurement, inventory, fee schedules,
       and other financial matters;

   •   reviewed Whitney’s independent audit reports and related financial statements for
       CYs 2006 through 2008;

   •   performed ratio analyses of Whitney’s financial statements;

   •   reviewed Whitney’s administrative procedures related to personnel, conflict resolution,
       whistle-blower protection, and other non-financial matters.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, Whitney’s financial viability may be adversely impacted by its
financial condition in CYs 2007 and 2008. During this period, Whitney’s expenditures exceeded
revenues and its liabilities significantly increased. Moreover, while Whitney has the capacity to
manage and account for Federal funds and is capable of operating a health center in accordance
with Federal regulations, we noted issues related to Whitney’s accounting system, procurement
practices, Recovery Act reporting, and whistleblower process. In addition, Whitney’s inventory
records do not include all required elements and written procedures have not been established for
periodically performing a physical inventory. Finally, Whitney’s fees for patients with income at
or below established Federal guidelines were not always correctly calculated.

FINANCIAL VIABILITY

Whitney is a longstanding and viable organization. However, our assessment of Whitney’s
financial position for CYs 2007 and 2008 identified two weaknesses:

   •   Whitney’s expenditures exceeded its revenues by $388,353 in CY 2007 and by $14,328
       in CY 2008.

   •   Whitney’s total liabilities increased from $2,179,189 in CY 2007 to $3,693,156 in
       CY 2008 (69.47 percent). However, for the same period, its total assets only increased
       from $5,631,969 to $7,203,976 (27.91 percent).




                                               3
For an organization to be considered fiscally sound, revenues should exceed expenditures. In
addition, an organization’s liabilities should not increase at a rate higher than its assets.
Therefore, the weaknesses we identified could adversely impact Whitney’s financial viability. 2

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21(b)(1), grantees must maintain financial systems that provide for
accurate and complete reporting of grant related financial data. Pursuant to 45 CFR
§ 74.21(b)(3), grantees’ financial management systems must provide effective control over and
accountability of all funds, property, and other assets.

Whitney’s accounting software does not allow the organization’s costs to be segregated by grant.
As a result, in order to maintain complete and accurate financial data, Whitney officials manually
review and track grant-related expenses.

Whitney’s accounting procedures do not adequately ensure effective control and accountability
of all funds. Specifically, Whitney has not developed comprehensive policies and procedures
related to accounts payable. Moreover, Whitney has not implemented procedures that provide
for adequate segregation of duties, or restricted access to computer systems and sensitive
program documentation.

PROCUREMENT PRACTICES

Pursuant to 45 CFR pt.74, grantees are required to establish written procurement procedures
which ensure that materials and services are obtained in an economical and practical manner in
an environment which allows for open and free competition, to the maximum extent possible.

Whitney has established written procurement procedures. However, these procedures do not
require the use of requests for proposals or sealed competitive bids to ensure that materials and
services are obtained in an economical, practical, and competitive manner.

RECOVERY ACT REPORTING

Section 1512 of the Recovery Act requires grantees to provide awarding agencies with quarterly
reports detailing the total amount of Recovery Act funding received and the total amount of
Recovery Act funding expended or obligated by project or activity. Contrary to this requirement,
Whitney has not established quarterly Recovery Act reporting procedures.

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against employees of an organization
awarded Recovery Act funds for disclosing to appropriate authorities – including members of
Congress, the Government Accountability Office, a State or Federal regulatory or law
enforcement agency, a court or grand jury, or the head of a Federal agency, any credible

2
 We note that pursuant to 45 CFR § 74.14, awarding agencies may impose additional requirements, as needed, if an
applicant or recipient has a history of poor performance or is not financially stable.


                                                       4
evidence of (1) gross mismanagement of an agency contract or grant relating to covered funds;
(2) a gross waste of covered funds; (3) a substantial and specific danger to public health or safety
related to the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant, awarded or
issued relating to covered funds.

Whitney has an established whistleblower policy that explains how employees can communicate
instances of wrongdoing to Whitney officials or its Board of Directors. The policy also protects
whistleblowers from any form of retaliation. However, the policy does not address all of the
required rights and remedies provided by the Recovery Act for reporting suspected instances of
wrongdoing. Specifically, the policy does not address the right of a whistleblower to report
wrongdoing to appropriate authorities.

INVENTORY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees must maintain inventory records that contain the
following information for equipment acquired with Federal funds: a description of the
equipment, an identification number, its location, acquisition and disposition data, condition of
property, and whether title vests with the grantee or the Federal Government. In addition,
grantees must perform a physical inventory and reconcile the results of its inventory with
existing records at least once every two years.

Whitney maintains inventory records. However, its inventory records do not include the
condition of the property or whether title vests with Whitney or the Federal Government. In
addition, Whitney does not have written procedures which require a physical inventory of
equipment to be performed at least once every two years to validate the accuracy of its inventory
records. As of December 31, 2009, Whitney’s equipment, furniture, and fixtures were valued at
$2,772,417, according to its 2009 audited financial statements.

FEE SCHEDULE

Pursuant to 42 CFR § 51c.303(f), health center grantees must establish a fee schedule (often
referred to as a “sliding fee scale”) to ensure that discounted rates are provided to patients with
income at or below established Federal poverty guidelines.

Whitney utilizes a sliding fee scale for patients with income at or below established Federal
poverty guidelines. However, during the period CY 2006 through CY 2008, Whitney’s
independent auditors reported that Whitney’s sliding fees were not always correctly calculated
because personnel did not properly apply the scale. In addition, personnel did not always obtain
documentation supporting the patient’s income level.




                                                  5
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Whitney’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

WHITNEY M. YOUNG, JR., HEALTH CENTER, INC. COMMENTS

In written comments on our draft report, Whitney agreed with the findings and described actions
that it had taken to address them. Whitney’s comments are included in their entirety as the
appendix.

        OTHER MATTER: MANAGEMENT OFFICIAL SEVERANCE PACKAGE

Pursuant to 2 CFR pt. 230, to be allowable under a Federal award, costs must be reasonable in
nature. In determining the reasonableness of a given cost, consideration is given to whether the
cost is generally recognized as ordinary and necessary for the operation of the organization and
whether the organization acted with prudence.

During our audit period, Whitney’s Board of Directors allowed a senior Whitney management
official to resign rather than terminating the individual’s employment for breaching the terms of
his employment agreement. Consequently, Whitney provided the official an $86,677 ($47,542
Federal share) severance payment. 3 The severance payment was comprised of 6 months
salary ($75,000), a $5,000 bonus, and the cash value of 6 months of health insurance coverage
($6,677). Normal severance payments are generally allowable for Federal reimbursement and
Whitney’s employment agreement contained provisions for such payments. However, given the
nature of the contract breach, Whitney could have elected to terminate the employee, thereby
avoiding the severance payment. HRSA should consider whether the Board’s decision to allow
the official to resign rather than terminating the individual’s employment was prudent given the
fact that Whitney was experiencing financial difficulties, as outlined in this report.




3
  To calculate the impact of the severance payment on Federal funds, we examined Whitney’s 2009 unaudited
financial statements and calculated the percentage of Federal revenues ($8,843,051) to revenues received from all
sources ($16,121,399). We then applied this percentage (54.85 percent) to the total severance payment ($86,677) to
determine the Federal share.


                                                        6
APPENDIX
                                                                                                                              Page 1 of5


APPENDIX: WHITNEY M. YOUNG, JR., HEALTH CENTER, INC., COMMENTS 





                                 July 12, 2010
  WMY LOCATIONS
  OAlb...y 1I•• ltb Cealer       James P. Edert
   920 t..orlc  Dr,,,,,          Regional Inspector General for Audit Services
     AI....,., NY 1220?
     (5ll)oI6s.... m             Region II
  a TrtIy   ",.ltll enter
     6-102nd Snm
                                 Jacob lavits ~edera l Building
                                 26 Federal Pia!" Room 390
     Troy.NYllllC                New York, NY 10278
     (S II ) 11l-6900

  DS<buy"r;l.cb le".",.a'
   H •• II~ eUlOr
   6760in!Oll"""''' 

   Albany, NY 12206 
            Oear Mr. Edert:
   ('11) 47s.67Of 

  1:1 GUT•• 1'01.... 0.-10 1     The following is our   relpon~   to the   findin8~ indi~ated   in the review dated July 1,
      HnltbCcalu
     27. Sou\h I'eItl Sln'<1     2010.
     Albany, NY ]l2(ll 

     (SII) 0I62·J802 
           Finim~ial   Via bility due to financial results In 2007 and 2008
  a 	 S b.l1d... "rtp.o.. tory
     H •• lth enloe              In 2007 Whitney M. Young Jr., Health services (WMY) had an operating loss of
     400 Sheri"""A.'.....
     "'......,.. NY 1220(;       $388,353 and a net loss of $74,241 after investment in~ome and non-operating
     (513) 47:1.&72
                                 Income of $314,112. In 2008 WMY had an opera ting loss of $14,328 and a net loss
  a 	Melll.do. e Mo'.,uu<*       of $139 after investm ents and non-operati ng Income of $14,189. In 2009 this
     Tn.' ...... I'.,,~nm
     10 D<win SU'<eI             positive trend accelera ted as WMY had an operating gain of $546,568 and a net gain
     "'Ibony. NY 12207
     ('18)016"3882               of $1,254,075 after Investments and non-operating income of $707.507. The 2009
  a 	F... lIy Alcoholism &.      financial results significantly improved the balance shee t.
     CII.",it.1 Dcp... du<y
     "fRalm.1I1 Se,....i<Q       The loss in 2007 was due primarily to the implementation of the EMR/PMS mid-year
     900 Lark on••
     AI.....,.. NY 12207         and several doctors left the practice and the positions took some time to refill.
     ('11)46,·9:\4'              Newly hire d providers then were not paid by the managed care organizations until
     www.wmyhoaJlh.o.ll          they comple ted their lengthy credentialing process. The practice management
                                 system required a substantial amount of work before it could process NYS Medica id
                                 claims correctly. These proble ms caused delays and re-work of clClims Clnd in some
                                 cases lost revenue. During 2007 WMY acquired a new dental practice from a local
                                 hospital and opened 3 sc hool based health sites. Therefo re, the operating income
                                 in 2007 does not reflect the significant strides WMY made in implementing
                                 electronic medical records and a new in tegrated practice management s~tem ; in
                                 addition to substantially growing the practice.

                                 WMY worked dilige ntly wilh our PMS vendor to make the necessary Improvements
                                 so that Medica id claims could be pnxesscd correctly and efficiently. Many of these
                                 changes were made in 2008 Clnd during 2009 WMV ca ught up on patient accounts
                                 receivable . WMY's provider base in 2009 was very stable. This improved the ir
                                                                                                           Page 2 of5




productivity and there were fewer credentialing problems with managed care companies.

Additionally, in 2007 WMY purchased a building adjacent to the main health center, where we had been
leasing the upper level for years. This purchase was financed by a mortgage which accounted for a 41%
increase in WMY' s liabilities and caused only a 16% increase in assets from 2006 because WMY's ratio of
assets to liabilities at the end of 2006 was 2.58.

WMY's current ratio at the end of 2009 was a favorable 2.6. Assets increased 37% from 2007 through
2009 while liabilities increased 36% and the total assets to total liabilities ratio was 2.6. WMY will
continue to focus on maintaining fiscally sound operations where the revenues exceed the
expenditures.

Policies and Procedures for Accounting System

WMY accounting software allows the organization to segregate cost s by purpose or by grant. Generally
the purpose and the grant are the same . The IDS grant is more of a challenge as WMY used it for several
purposes including bringing in providers for different departments and locations, and paying part of staff
members' salaries in various departments who would be part time without IDS. WMY used the payroll
system to track the personnel costs related to the IDS. We have since determined that WMY can
segregate the revenue and expense as requested . We are in the process of implementing this change .
The CIP grant is being used for two major projects and is segregated .

WMY has developed written policies that document the procedures for processing accounts payable;
and segregation of duties and restrictive access to computer systems and sensitive program
documentation to ensure effective control and accountability of funds.

Policies and Procedures for Procurement Practices

WMY has revised its procurement procedures to require the use of request for proposal and sealed
competitive bids as required by 4S CFR pt. 74.

Policies and Procedures for Recovery Act Reporting

WMY has written a policy which documents its procedure for providing awarding agencies with
quarterly reports detailing the total amount of Recovery Act funding received and the total amount of
recovery Act funding expended or obligated by project or activity.

Policies and Procedures for Protecting Whistle Blowers

WMY has revised the Whistle Blower Policy to include the employee' s right to report to external
authorities as required under the Recovery Act in addition to WMY officials and the WMY Board of
Directors.




                                                                                              OIG Response
                                                                                               July 12, 2010
                                                                                                         Page 2
                                                                                                      Page 3 of5




Policies and Procedures for Inventory Records

WMY has revised the inventory policy to capture the information for equipment acquired with Federal
funds including: a description of the equipment, an identification number, its location, acquisition and
disposition data, condition of property, and whether title vests with the grantee or the Federal
Government. WMY has developed a policy that includes a physical inventory of equipment to be
performed once every two years . The inventory is expected to be completed by year end.

Sliding Fee Schedule calculation and Documentation

WMY trained staff and performed monthly audits of the staffs calculation of the sliding fee and
documentation of the patients' income level. WMY' s independent auditors tested the application of
the sliding fee schedule during the 2009 A-133 audit and did not report that WMY's sliding fees were
incorrectly calculated or documented .

WMY will continue the audit program and provide any necessary training to ensure continued
compliance,

Management Official Severance Package

Response from the Chairman of the Board regarding the DIG's conclusions in the very last section of the
draft report pertaining to "Other Matter: Management Official Severance Package."

The Board of Directors of WMY respectfully disagrees and does not co ncur with the DIG's conclusions
with respect to this "Other Matter."

The Executive Committee of the Board and the Board in full met to address the behavior of the se nior
management official in question and to determine how best to handle the separation once the decision
was made that the individual should in fact be separated from WMY.

We submit that the Board did take into consideration the charge of acting prudently and ensuring that
the cost was reasonable and further that consideration was given to its impact on the operations of
WMY.

As noted in the report, severance payments are generally allowable for Federal reimburse ment and
WMY's employment agreement with the management official here in question contained provisions for
such payments.

For the following reasons we believe the Board acted prudently:

First. the Board immediately hired outside counsel specia lizing in labor law. Second, under the
expressed terms of the parties' Employment Agreement, there were only two ways to terminate the
management official's employment with WMY in light of t he circumstances existing in November 2009.
That is when the management official was allowed to resign voluntarily pursuant to the parties' mutual
agreement to terminate their Employment Agreement and his employment thereunder.


                                                                                            DIG Response
                                                                                             July 12, 2010
                                                                                                    Page 3
                                                                                                      Page 4 of5




The first way, under the Employment Agreement, was to "mutually agree to termination in writing."
This is essentially the option that was agreed upon by the Board and the management official. Second,
the management official's employment with WMY could have been terminated for cause. Of course,
"for cause" provisions, whether any such cause in fact existed would have been subject to arbitration
and/or litigation in New York courts.

Importantly, however, even if cause existed and even if the management official had been terminated
by the Board for such cause and such a termination was upheld by an arbitrator, a judge, or a jury
(questions which there is no guarantee would be resolved in favor of WMYj, certain severance and
"Retirement Payments" were nevertheless still required to be paid to the employee under the express
terms of the Employment Agreement. Under such express terms, WMY would have been required to
provide the employee with one year's worth of annual compensation and benefits (far more than what
was ultimately paid to the employee). The payment of one years' worth of annual compensation and
benefits, based on this provision, is what was argued by the management official.

Therefore, after thoughtful deliberations and based on counsel's advice, rather than engage in
prolonged and expensive litigation over these issues, the Board and the management official mutually
agreed to terminate their Employment Agreement and the management official was allowed to
voluntarily resign his position. In reaching this agreement with the management official and providing
him with severance benefits only as required by the Employment Agreement, the Board believes it acted
prudently by saving WMY additional costs associated with other options including a possible additional
six months in Retirement Pay that the employee may have claimed entitlement to as well as incurring
additional attorneys' fees from prolonged litigation.

With respect to the bonus payment made to the management official upon his resignation and the
mutually agreed upon termination of the parties' Employment Agreement, it must be noted that on or
about June 2, 2009, in executive session at a regular scheduled meeting of WMY's Board of Directors, it
was determined that the management official in question would be provided with a one-time bonus
(not an increase in salary) in the amount of $5,000.00. This one-time bonus payment was made at the
discretion of the Board again as provided by the Employment Agreement, while being " mindful of the
current economic conditions and the fact that there had been staff reductions at WMY. This bonus was
in recognition of what was then believed in good faith by the Board to be the management official's
"instrumental [involvement) in turning the Center around finanCially and bringing in several grants," as
well as due to increases in "his and the Center's visibility both locally and statewide." Even more
importantly, it should be noted that the decision to make this one-time djscretionary bonus payment
was made and communicated to the management official before the Board learned of the fC!-cts giving
rise to a claim that he may have breached his Employment Agreement with WMY.

While the OIG report does include a finding around the financial viability of WMY speCifically citing CY
2007 and CY 2008 and cites this as part of their finding in the section pertaining to the Severance
Package -- "given the fact that Whitney was experiencing financial difficulties" - in fact, WMY
experienced a strong CY 2009 and thus by the time the separation was negotiated, the Board was aware
of the positive financial position of WMY.
                                                                                            OIG Response
                                                                                             July 12, 2010
                                                                                                    Page 4
                                                                                                              Page 5 of5




Finally, it should be noted the Board also conside red the non-financial consequences of staff term ination
on the organization's standing in the community. WMY has been providing essential healthcare services
for the past 39 years to uninsured and under$erved population of the Capital Region of New York State,
and is highly respected in the community. In arrivi ng at the final de<:ision, the Board of Oirectors
demonstrated sensitivity to community relations and perGeptions, diligently oonsidered the potential
impact on our relationships in th e community snould we e nga ge in what had the potential to become a
Ions, dra wn Qut, e xpensive and likely public liti gation.

Based on the expressed language of WMY's Employment Agreement with the management official in
question, the risks and costs associated with litigating a termination for cause and any attempt to avoid
and/or refuse to compensate the employee as required by the parties' agre ement, and all of the
additional facts set forth above pertaining to this nether Matter," we maintain that the Board did in fact
act prudently in this matter.

If you have any questions, concerns, or require additional information or documentation, please contact
me at 518·591·4453 or via email at ecole@Wmyhealth.org. We appreciate the thorough review
performed by your office as WMY strives to continually improve its operations and make the best use of
the Federal funds we are entrusted with to provide health care for our patients.

Very truly yours,


Elizabeth Cole
Chief Operating Officer
